App. 1
In the
United States Court of Appeals
For the Seventh Circuit
-----------------------------------------------------------------------

No. 18-2686
MATTHEW D. WILSON, et al.,
Plaintiffs-Appellants,
v.
COOK COUNTY, et al.,
Defendants-Appellees.
-----------------------------------------------------------------------

Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 1:17-cv-07002 – Manish S. Shah, Judge.
-----------------------------------------------------------------------

ARGUED APRIL 4, 2019 – DECIDED AUGUST 29, 2019
-----------------------------------------------------------------------

Before RIPPLE, HAMILTON, and ST. EVE, Circuit
Judges.
PER CURIAM. Two Cook County residents appeal
the dismissal of their complaint, which raises a Second
Amendment challenge to Cook County’s ban on assault
rifles and large-capacity magazines. Less than five years
ago, we upheld a materially indistinguishable ordinance against a Second Amendment challenge. See
Friedman v. City of Highland Park, 784 F.3d 406 (7th

App. 2
Cir. 2015). The district court dismissed the plaintiffs’
complaint on the basis of Friedman. We agree with the
district court that Friedman is controlling. Because the
plaintiffs have not come forward with a compelling reason to revisit our previous decision, we affirm the judgment of the district court.
I.
BACKGROUND
In November 2006, the Commissioners of Cook
County enacted the Blair Holt Assault Weapons Ban
(“the County Ordinance”), an amendment to the Cook
County Deadly Weapons Dealer Control Ordinance.
The amendment defines “assault weapon” and “largecapacity magazine,” and makes it illegal to “manufacture, sell, offer or display for sale, give, lend, transfer
ownership of, acquire, carry or possess” either item
in Cook County. Cook County, Ill. Code §§ 54-211, 54212(a). Any person who legally possessed an assault
weapon or large-capacity magazine prior to enactment
of the amendment must remove it from county limits,
modify it to render it permanently inoperable, or surrender it to the Sheriff. Id. § 54-212(c). When a weapon
or magazine is surrendered or confiscated, the ordinance requires the Sheriff to determine if it is needed
as evidence, and, if not, to destroy it. Id. § 54-213(a)(b). Violation of the County Ordinance is a misdemeanor;
it carries a fine ranging from $5,000 to $10,000 and a
term of imprisonment of up to six months. Id. § 54214(a).

App. 3
In September 2007, three Cook County residents,
including the plaintiffs, brought a preenforcement action in Illinois state court, challenging the County
Ordinance and seeking declaratory and injunctive relief. The complaint named as defendants the County,
the individual commissioners of the Cook County
Board of Commissioners, and the Cook County Sheriff.
The plaintiffs alleged that the ordinance violates the
Due Process Clause because the definition of assault
weapons is unconstitutionally vague (Count I); the
ordinance fails to provide a scienter requirement and
fails to give fair warning of the conduct proscribed
(Count II); the ordinance is overbroad (Count III); the
ordinance violates their right to bear arms under the
Second Amendment (Count IV); the ordinance is an
unconstitutional exercise of the County’s police powers
(Count V); and the ordinance violates the Equal Protection Clause because it arbitrarily classifies certain
firearms (Count VI). The Circuit Court of Cook County
dismissed the complaint, and the Illinois Appellate
Court upheld the dismissal. The Supreme Court of
Illinois affirmed the dismissal of the due process and
equal protection claims; however, it remanded for further proceedings the plaintiffs’ Second Amendment
claim. See Wilson v. Cty. of Cook, 968 N.E.2d 641, 658
(Ill. 2012). Plaintiffs then voluntarily non-suited their
Second Amendment claim prior to resolution on the
merits.
In June 2013, the City of Highland Park, Illinois, also enacted an ordinance banning assault weapons and large-capacity magazines within city limits

App. 4
(“Highland Park Ordinance”). The Highland Park Ordinance defines “assault weapon” and “large-capacity
magazine” in virtually identical terms as the County
Ordinance does and proscribes the same conduct: it penalizes those who “manufacture, sell, offer or display
for sale, give, lend, transfer ownership of, acquire or
possess” any assault weapon or large-capacity magazine. Highland Park, Ill. Code § 136.005. The Highland
Park Ordinance also requires those in possession of a
banned item to remove it from city limits; to render it
permanently inoperable or permanently alter it so that
it no longer meets the definition of assault weapon or
large-capacity magazine; or to surrender it to the Chief
of Police. Id. § 136.020. The Chief of Police, like the
Cook County Sheriff, must destroy any assault weapon
or large-capacity magazine not needed as evidence. Id.
§ 136.025. Highland Park punishes a violation of its ordinance as a misdemeanor, and the violation carries a
fine of $500 to $1,000 and a maximum term of six
months’ imprisonment. Id. § 136.999. Shortly after
the Highland Park Ordinance was adopted, a resident challenged the ordinance on Second Amendment
grounds, and we upheld the Highland Park Ordinance
against the constitutional challenge. See Friedman v.
City of Highland Park, 784 F.3d 406 (7th Cir. 2015).
On July 28, 2017, Matthew Wilson and Troy
Edhlund refiled their challenge to the County Ordinance in Illinois state court. As they had in their original complaint, they pleaded a Second Amendment
claim as well as the previously dismissed due process
and equal protection claims to “preserve[ ]” those

App. 5
claims “for appeal.”1 The defendants removed the action to federal court on September 28, 2017.
Once in federal court, the district court granted
the defendants’ motion to dismiss the complaint under
Federal Rule of Civil Procedure 12(b)(6). The court observed that the Cook County Ordinance is “materially
identical” to the Highland Park Ordinance at issue in
Friedman2 and that Friedman, therefore, required the
dismissal of the plaintiffs’ Second Amendment claim.3
The plaintiffs filed a timely notice of appeal.4

1

R.2-1 at 6. It is not clear to us why the plaintiffs repleaded
their claims under the Due Process and Equal Protection Clauses.
The Supreme Court of Illinois affirmed the dismissal of those
claims. See Wilson v. Cty. of Cook, 968 N.E.2d 641, 658 (Ill. 2012).
Any further review of those claims must be sought in the Supreme
Court of the United States. See 28 U.S.C. § 1257(a).
2
R.30 at 3.
3
Id. at 7. Although the district court did not mention the
plaintiffs’ other claims in its memorandum opinion, it dismissed
the plaintiffs’ complaint in its entirety and entered a final judgment. See R.31. As previously noted, it is unclear what the plaintiffs were trying to accomplish by repleading their due process
and equal protection claims. They made no mention of them either in their opposition to the defendants’ motion to dismiss the
complaint in the district court or in their briefing before this
court.
4
The district court had jurisdiction over the plaintiffs’ constitutional claims pursuant to 28 U.S.C. §§ 1331, 1343. Our jurisdiction is secure under 28 U.S.C. § 1291.

App. 6
II.
DISCUSSION
The plaintiffs now submit to us that the district
court should not have relied on Friedman. In their
view, their situation is materially different from that
of the Friedman plaintiffs, and they believe that they
should have the opportunity to develop a factual record
establishing those differences. In the alternative, they
contend that Friedman was wrongly decided and that
their claim should be evaluated under a test that
tracks more closely the language that the Supreme
Court employed in District of Columbia v. Heller, 554
U.S. 570 (2008), and that we employed in Ezell v. City
of Chicago, 651 F.3d 684 (7th Cir. 2011). We begin our
consideration of the plaintiffs’ claim by reviewing Heller, Ezell, and Friedman in the developing landscape of
Second Amendment jurisprudence.
A.
In Heller, the Supreme Court considered the constitutionality of the District of Columbia’s ban on
handguns. After reviewing the history of the Second
Amendment, the Court explained that the right to bear
arms “guarantee[s] the individual right to possess and
carry weapons in case of confrontation.” Heller, 554
U.S. at 592. The Court further stated that the right was
not unlimited: it “was not a right to keep and carry any
weapon whatsoever in any manner whatsoever and
for whatever purpose.” Id. at 626. Consequently, the
Court’s holding did not “cast doubt on longstanding

App. 7
prohibitions on the possession of firearms by felons
and the mentally ill, or laws forbidding the carrying of
firearms in sensitive places such as schools and government buildings, or laws imposing conditions and
qualifications on the commercial sale of arms.” Id. at
626-27.
Moreover, the Court explained, the Second Amendment was meant to protect the possession of weapons
“in common use at the time” the Amendment was
adopted. Id. at 627 (quoting United States v. Miller, 307
U.S. 174, 179 (1939)). It therefore did not preclude a
ban on “the carrying of dangerous and unusual weapons.” Id. (internal quotation marks omitted). The District of Columbia’s ban, however, did not fall into
one of these categories. Instead, “[t]he handgun ban
amount[ed] to a prohibition of an entire class of ‘arms’
that [wa]s overwhelmingly chosen by American society” for the lawful purpose of self-defense. Id. at 628.
Additionally, the prohibition extended to possession
and use in the home, “where the need for defense of
self, family, and property is most acute.” Id. Consequently, the Court concluded that the District’s ban
could not be reconciled with the guarantees of the Second Amendment.5

5

In McDonald v. City of Chicago, 561 U.S. 742, 791 (2010),
the Court held “that the Due Process Clause of the Fourteenth
Amendment incorporates the Second Amendment right recognized in Heller” and, consequently, states’ attempts to regulate
the use of firearms must conform to the requirements of the Second Amendment.

App. 8
In Ezell, we applied Heller to the City of Chicago’s
treatment of firing ranges. At the outset, we acknowledged that, although Heller provided “general direction,”
Ezell, 651 F.3d at 700, “the standards for evaluating
Second Amendment claims [we]re just emerging,” id.
at 690. We nevertheless took from Heller “several key
insights about judicial review of laws alleged to infringe Second Amendment rights. First, the threshold
inquiry in some Second Amendment cases will be a
‘scope’ question: Is the restricted activity protected by
the Second Amendment in the first place?” Id. at 701.
[I]f the government can establish that a challenged firearms law regulates activity falling
outside the scope of the Second Amendment
right as it was understood at the relevant historical moment . . . the analysis can stop
there; the regulated activity is categorically
unprotected, and the law is not subject to further Second Amendment review.
Id. at 702-03. If, however, the government cannot meet
this burden, then the court must “inquir[e] into the
strength of the government’s justification for restricting or regulating the exercise of Second Amendment
rights.” Id. at 703. The rigor of this inquiry “will depend
on how close the law comes to the core of the Second
Amendment right and the severity of the law’s burden
on the right.” Id. “[A] severe burden on the core Second
Amendment right of armed self-defense will require an
extremely strong public-interest justification and a
close fit between the government’s means and its end.”
Id. at 708. However,

App. 9
laws restricting activity lying closer to the
margins of the Second Amendment right, laws
that merely regulate rather than restrict, and
modest burdens on the right may be more easily justified. How much more easily depends
on the relative severity of the burden and its
proximity to the core of the right.
Id.
Applying this framework, we could not conclude
that “range training is categorically unprotected by the
Second Amendment.” Id. at 704. Moving to the second
inquiry, we observed that “[t]he City’s firing-range ban
is not merely regulatory; it prohibits the ‘law-abiding,
responsible citizens’ of Chicago from engaging in target practice in the controlled environment of a firing
range.” Id. at 708. “This,” we explained, “[wa]s a serious
encroachment on the right to maintain proficiency in
firearm use, an important corollary to the meaningful
exercise of the core right to possess firearms for selfdefense.” Id. The ban was especially problematic given
that the City itself had placed special import on range
training by making it a requirement for obtaining a
permit to possess a firearm. Id. We concluded, therefore, that “a more rigorous showing . . . should be required, if not quite ‘strict scrutiny.’ ” Id. The City,
however, had “not come close to satisfying” its “burden
of establishing a strong public-interest justification for
its ban on range training” and a “close fit between the
range ban and the actual public interests it serves.” Id.
at 708-09.

App. 10
Following Ezell, the question of the constitutionality of assault-weapons bans arose in two of our sister
circuits, and those courts upheld the bans against Second Amendment challenges. As we had in Ezell, these
courts considered “(1) how closely the law c[ame] to the
core of the Second Amendment right; and (2) how severely, if at all, the law burden[ed] that right.” Fyock v.
Sunnyvale, 779 F.3d 991, 998 (9th Cir. 2015); see also
Heller v. District of Columbia (Heller II), 670 F.3d 1244,
1257 (D.C. Cir. 2011) (noting that “the level of scrutiny
applicable under the Second Amendment surely depends on the nature of the conduct being regulated and
the degree to which the challenged law burdens the
right” (internal quotation marks omitted)). Although
these bans may have “implicate[d] the core of the Second Amendment,” the bans were “simply not as sweeping as the complete handgun ban at issue in Heller”
and did “not affect the ability of law-abiding citizens to
possess the quintessential self-defense weapon – the
handgun.” Fyock, 779 F.3d at 999 (internal quotation
marks omitted). These courts therefore concluded that
intermediate scrutiny was appropriate and, applying
that level of scrutiny, further concluded that the ordinance was “substantially related to the compelling government interest in public safety.” Id. at 1000 (internal
quotation marks omitted); see also Heller II, 670 F.3d
at 1262-63 (noting a lack of evidence “that semi-automatic rifles and magazines . . . are well-suited to or
preferred for the purpose of self-defense or sport,”
therefore applying intermediate scrutiny, and concluding that the evidence demonstrated that the ban was
“likely to promote the Government’s interest in crime

App. 11
control in the densely populated urban area that is the
District of Columbia”).
Our decision in Friedman built upon the experience of our sister circuits in applying Heller to
assault-weapons bans. We began our consideration of
the constitutionality of the Highland Park Ordinance
by noting that, although “Heller d[id] not purport to
define the full scope of the Second Amendment,” it
did make clear “that the Second Amendment ‘does not
imperil every law regulating firearms.’ ” Friedman, 784
F.3d at 410 (quoting McDonald v. City of Chicago, 561
U.S. 742, 786 (2010)). Moreover, we were able to deduce
that, under Heller, “at least some categorical limits on
the kinds of weapons that can be possessed are proper,
and that they need not mirror restrictions that were
on the books in 1791.” Id. We observed that, in considering equivalent weapons bans, our sister circuits had
attempted to discern what level of scrutiny should apply to an assault-weapons ban. See id. Their inquiries
had been posed in the abstract, asking “(1) how closely
the law comes to the core of the Second Amendment
right; and (2) how severely, if at all, the law burdens
that right.” Fyock, 779 F.3d at 998. We, however, attempted to evaluate the Highland Park Ordinance in
more “concrete” terms by asking: “whether a regulation
bans weapons that were common at the time of ratification or those that have ‘some reasonable relationship
to the preservation or efficiency of a well regulated
militia,’ and whether law-abiding citizens retain adequate means of self-defense.” Friedman, 784 F.3d at 410
(quoting Heller, 554 U.S. at 622) (citations omitted). We

App. 12
then observed that “[t]he features prohibited by Highland Park’s ordinance were not common in 1791.” Id.
However, “[s]ome of the weapons prohibited by the ordinance are commonly used for military and police
functions; they therefore bear a relation to the preservation and effectiveness of state militias.” Id. We
turned then to the question “whether the ordinance
leaves residents of Highland Park ample means to exercise the ‘inherent right of self-defense’ that the Second Amendment protects.” Id. at 411 (quoting Heller,
554 U.S. at 628). We noted that “Heller did not foreclose
the possibility that allowing the use of most long guns
plus pistols and revolvers, as Highland Park’s ordinance does, gives householders adequate means of
defense.” Id. Moreover, we explained that, “[w]ithin
the limits established by the Justices in Heller and
McDonald, federalism and diversity still have a claim,”
and “[t]he best way to evaluate the relation among assault weapons, crime, and self-defense is through the
political process and scholarly debate.” Id. at 412. In
short, because the Highland Park Ordinance did not
strike at the heart of the Second Amendment, and because the residents of Highland Park were not left
without a means of self-defense, the Constitution did
not foreclose Cook County’s efforts to preserve public
safety.
B.
Returning to the plaintiffs’ arguments, they contend that, in Friedman, the court was “able to, and did,
consider facts specific to Highland Park, as well as the

App. 13
findings of the City Council, that provided the basis for
its holding.”6 The same record, they assert, does not
support the district court’s judgment here. Moreover,
they maintain that, if they were allowed to develop a
factual record, it would reveal important, material distinctions between the residents of Highland Park and
the residents of Cook County.
We are unpersuaded. The result in Friedman did
not turn on any factual findings unique to Highland
Park. For example, to address whether the ordinance
banned weapons that are commonly owned, we referenced a national statistic. Friedman, 784 F.3d at 409
(“The record shows that perhaps 9% of the nation’s firearms owners have assault weapons. . . .”). We also assessed the dangerousness of the prohibited weapons by
discussing general evidence of the features of semiautomatic guns and large-capacity magazines. Id.
Moreover, we did not limit our analysis to crime trends
in Highland Park. See id. at 411 (“That laws similar
to Highland Park’s reduce the share of gun crimes
involving assault weapons is established by data.”).
We did undertake inquiries specific to Highland Park’s
ordinance. See, e.g., id. at 410 (determining that “[t]he
features prohibited by Highland Park’s ordinance
were not common in 1791”); id. at 411 (concluding
that “Highland Park’s ordinance leaves residents with
many self-defense options”). However, the plaintiffs
admit that the prohibitions imposed by the County
Ordinance and the Highland Park Ordinance are
6

Appellants’ Br. 15.

App. 14
materially indistinguishable. Consequently, there is no
need for County-specific discovery regarding the plaintiffs’ Second Amendment challenge.
The plaintiffs further argue that, to determine
whether a particular ordinance impinges on residents’
right to bear arms, we must consider crime statistics,
population density, and demographics of the locality.
Because “[t]he type, magnitude and frequency of the
criminal threats faced by the 5 million plus residents
of Cook County . . . are likely to be very different from
those confronted by the 29,000 residents of Highland
Park,”7 they submit that discovery is necessary to explore these disparities.
The failing in this argument is that our analysis
in Friedman did not rest at all on the types or frequency of crime that a Highland Park resident may
face. Such considerations never are mentioned, much
less analyzed, in our decision. Our discussion of selfdefense focused instead on the availability of other
means for citizens to defend themselves. This is a question answered by the particular locality’s laws, not by
its crime rates. The plaintiffs have not come forward
with any legal authority establishing that Cook County
regulates the possession of firearms to a greater extent
than was present in Highland Park.

7

Appellants’ Reply Br. 22.

App. 15
C.
Perhaps realizing the weakness in their initial argument, the plaintiffs dedicate the bulk of their brief
to their second argument: Friedman was wrongly decided. They maintain that Friedman cannot be reconciled with Heller or Ezell.
We have stated repeatedly, and recently, that, absent a compelling reason, we will not overturn circuit
precedent. See, e.g., Sotelo v. United States, 922 F.3d
848, 852 (7th Cir. 2019); United States v. Wolfe, 701 F.3d
1206, 1217 (7th Cir. 2012) (reiterating that a “compelling reason” is required to overrule a circuit precedent).
“[P]rinciples of stare decisis require that we give considerable weight to prior decisions unless and until
they have been overruled or undermined by the decisions of a higher court, or other supervening developments, such as a statutory overruling.” McClain v.
Retail Food Emp’rs Joint Pension Plan, 413 F.3d 582,
586 (7th Cir. 2005) (internal quotation marks omitted).
The plaintiffs have not come forward with any authority or developments that postdate our Friedman
decision that require us to reconsider that decision. Indeed, since Friedman, every court of appeals to have
considered the issue has reached the same conclusion that we did: bans on assault weapons and largecapacity magazines do not contravene the Second
Amendment. See Worman v. Healey, 922 F.3d 26 (1st
Cir. 2019); Ass’n of New Jersey Rifle & Pistol Clubs, Inc.
v. Att’y Gen. New Jersey, 910 F.3d 106 (3d Cir. 2018)
(large-capacity magazines); Kolbe v. Hogan, 849 F.3d

App. 16
114 (4th Cir. 2017) (en banc) (assault weapons); New
York State Rifle & Pistol Ass’n, Inc. v. Cuomo, 804 F.3d
242 (2d Cir. 2015).8
Moreover, Friedman does not run afoul of Heller.
The Court in Heller made clear that it was not “undertak[ing] an exhaustive historical analysis . . . of the full
scope of the Second Amendment.” Heller, 554 U.S. at
626. Consequently, it “was not explicit about how Second Amendment challenges should be adjudicated.”
Ezell, 651 F.3d at 701. Nevertheless, the questions we
posed in Friedman to assess the constitutionality of
the assault-weapons ban track the general guidance
provided by the Court in Heller. For instance, in Friedman, we asked whether “a regulation bans weapons
that were common at the time of ratification or those
that have ‘some reasonable relationship to the preservation or efficiency of a well regulated militia.’ ” 784
F.3d at 410 (quoting Heller, 554 U.S. at 622). This question embodies the recognition – set forth in Heller –
“that the Second Amendment confers an individual
right to keep and bear arms (though only arms that
‘have some reasonable relationship to the preservation
or efficiency of a well regulated militia’).” Heller, 554
U.S. at 622.
Finally, we believe Friedman fits comfortably under the umbrella of Ezell. As outlined above, Ezell
8

The decisions of the Ninth and District of Columbia Circuits in Fyock v. Sunnyvale, 779 F.3d 991 (9th Cir. 2015), and
Heller v. District of Columbia (Heller II), 670 F.3d 1244 (D.C. Cir.
2011), respectively, also are consonant with Friedman, but predated that decision.

App. 17
followed closely on the heels of Heller and McDonald
at a time when “Second Amendment litigation [wa]s
new.” Ezell, 651 F.3d at 700. We endeavored therefore to set forth the “threshold” inquiries that would
govern in “some Second Amendment cases.” Id. at 701
(emphasis added). Specifically, we first ask whether the
restricted activity is protected by the Second Amendment. If so, we inquire whether the strength of the government’s reasons justifies the restriction of rights at
issue, with the rigor of this second inquiry “depend[ing]
on how close the law comes to the core of the Second
Amendment right and the severity of the law’s burden
on the right.” Id. at 703. Shortly after Ezell, when the
question of the constitutionality of assault-weapons
bans arose in other circuits, those courts employed this
approach to conclude that intermediate scrutiny
should be applied and to uphold those bans under
that level of scrutiny. See Heller II, 670 F.3d at 1252
(“adopt[ing], as have other circuits, a two-step approach to determining the constitutionality of the
District’s gun laws” and specifically citing Ezell);
Fyock, 779 F.3d at 998. When Friedman came before us,
we were able to draw upon the experience of those circuits in addressing, specifically, assault-weapons bans.
Under those circumstances, we were able to pretermit
discussion of more general principles concerning level
of scrutiny and focus on the “concrete” inquiries that
had informed those courts’ analysis of whether the
bans violated the Second Amendment. Friedman, 784
F.3d at 410. Thus, for instance, our inquiry “whether
law-abiding citizens retain adequate means of selfdefense,” id., finds a parallel in Heller II’s consideration

App. 18
of whether “the ban on certain semi-automatic rifles
prevent[s] a person from keeping a suitable and commonly used weapon for protection in the home,” 670
F.3d at 1262. Also like our sister circuits, in Friedman
we evaluated the importance of the reasons for the
Highland Park Ordinance to determine whether they
justified the ban’s intrusion on Second Amendment
rights. We concluded, as our sister circuits had, that
“reduc[ing] the overall dangerousness of crime” and
making the public feel safer were “substantial” interests that justified the city’s action in adopting the
Highland Park Ordinance. Friedman, 784 F.3d at 412;
see also Fyock, 779 F.3d at 1000-01 (noting that ban
reasonably promoted the municipality’s “substantial
and important government interests” of “promoting
public safety,” “reducing violent crime,” and “reducing
the harm and lethality of gun injuries in general”).
Our decision in Friedman, therefore, did not “shun[ ]”
Ezell,9 but merely represents the application and extension of its principles to the specific context of a ban
on assault weapons and large-capacity magazines.
Conclusion
As the Court did in Heller, it is important to note
the limitations of our holding. We answer only the two
questions presented by the appellants: should the district court have given the plaintiffs an opportunity to
develop a factual record on which to distinguish Friedman, and should we revisit our holding in Friedman.
9

Appellants’ Br. 29.

App. 19
Our answer to both questions is no. Our holding in
Friedman did not depend upon the kinds of facts that
the plaintiffs seek to gather, and the plaintiffs have
come forward with no reason – much less a compelling
one – for us to revisit Friedman. We do not establish
here a comprehensive approach to Second Amendment
challenges, and we leave for other cases further development and refinement of standards in this emerging
area of the law.
For the foregoing reasons, the judgment of the district court dismissing the plaintiffs’ complaint under
Federal Rule of Civil Procedure 12(b)(6) is affirmed.
The defendants may recover their costs in this court.
AFFIRMED.

App. 20
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
MATTHEW D. WILSON
and TROY EDHLUND,
Plaintiffs,
v.

No. 17 CV 7002
Judge Manish S. Shah

COOK COUNTY, et al.,
Defendants.
MEMORANDUM OPINION

AND

ORDER

(Filed Aug. 3, 2018)
Cook County and the city of Highland Park, Illinois,
each enacted legislation effectively banning assault
weapons within their borders. The court of appeals
upheld Highland Park’s law against a facial challenge
under the Second Amendment. Friedman v. City of
Highland Park, Ill., 784 F.3d 406 (7th Cir. 2015),
cert. denied 136 S.Ct. 447 (2015). Plaintiffs Matthew D.
Wilson and Troy Edhlund challenge the county’s ordinance and argue that it infringes on their Second
Amendment rights. But there is no meaningful difference between the county’s ordinance and Highland
Park’s, and no reason to develop a factual record when
the court of appeals has held that a local government’s
categorical regulation of assault weapons falls outside
the scope of the Second Amendment’s individual right

App. 21
to keep and bear arms. Defendants’ motion to dismiss
is granted.1
The county ordinance, an amendment to the Cook
County Deadly Weapons Dealer Control Ordinance,
defines “Assault Weapons,” and makes it a crime for
any person to “manufacture, sell, offer or display for
sale, give, lend, transfer ownership of, acquire or possess any assault weapon or large capacity magazine.”
[17] ¶ 1 (quoting Cook County Code §§ 54-211, 54-212).2
As penalties, the ordinance includes a monetary fine or
a term of imprisonment; it requires people who possess
such prohibited weapons to either remove the weapon
from county limits, modify it to render it permanently
inoperative or beyond-the-scope of the ordinance, or
surrender it; and the ordinance provides that the Sheriff may destroy such a weapon if one is confiscated. Id.
Plaintiffs live in Cook County and they possess and
want to acquire weapons that they believe this ordinance prohibits. Id. ¶¶ 2–11. They say that the ordinance violates their fundamental right to self-defense
and defense of family with firearms that are commonly

1

A complaint must contain factual allegations that plausibly
suggest a right to relief. Ashcroft v. Iqbal, 556 U.S. 662, 677–78
(2009). The court must accept all factual allegations as true and
draw all reasonable inferences in the plaintiff ’s favor, but the
court need not accept legal conclusions or conclusory allegations.
Id. at 678–79.
2
Bracketed numbers refer to entries on the district court
docket. Page numbers are taken from the CM/ECF header at the
top of filings. The facts are taken from the operative complaint,
[17].

App. 22
used by law-abiding persons for lawful purposes. Id. at
21, ¶ 17.
Count IV of the amended complaint—a facial challenge to the amended ordinance under the Second and
Fourteenth Amendments—is the only claim before this
court. The complaint states that Counts I, II, III, and V
are alleged solely for purposes of an appeal. See [17].
Plaintiffs first filed this action against defendants in
state court and litigated their due process and equal
protection claims through a final judgment that was
affirmed by the Illinois Supreme Court. Wilson v. Cty.
of Cook, 2012 IL 112026 (2012) (remanding Second
Amendment claim, but affirming dismissal of due process and equal protection claims). Once back in the
trial court, plaintiffs voluntarily non-suited the case in
the Circuit Court of Cook County, and then refiled it.
[17] at 2. Defendants do not dispute that plaintiffs
timely refiled this action. They do, however, dispute
that plaintiffs have preserved an appeal on Counts I,
II, III, and V. The Illinois Supreme Court affirmed the
dismissal of those counts in the earlier phase of the litigation, so defendants believe that plaintiffs can only
appeal those claims to the United States Supreme Court.
[18] at 12 n.6 (citing 28 U.S.C. § 1257(a)). Whether or
not plaintiffs have preserved a challenge to the dismissals of Counts I, II, III, and V, plaintiffs agree that
those counts have been dismissed and they do not ask
this court to adjudicate them. The same parties litigated those claims to conclusion on the merits and they
are dismissed with prejudice.

App. 23
The ordinance plaintiffs challenge here is materially identical to the ordinance at issue in Friedman. As
such, defendants contend that plaintiffs cannot prevail
on their facial challenge to the ordinance. See Ezell v.
City of Chi., 651 F.3d 684, 698 (7th Cir. 2011) (“a law is
not facially unconstitutional unless it ‘is unconstitutional in all of its applications.’ ”) (citations omitted).
Plaintiffs do not dispute that the Highland Park ordinance is virtually the same as the county’s ordinance
or that Friedman is controlling authority on this court.
Instead, plaintiffs argue that the court in Friedman,
having the benefit of a fully-developed record,3 reached
a fact-specific holding that is distinguishable here.
The Second Amendment does not guarantee a private right to possess a type of weapon (such as a machine gun or a sawed-off shotgun) that the government
would not expect citizens to bring with them when
called to serve in the militia. Friedman, 784 F.3d at
408 (citing District of Columbia v. Heller, 554 U.S.
570, 624–25 (2008); United States v. Miller, 307 U.S. 174
(1939)). And because, as Heller and Miller acknowledged, the types of weapons individuals have at home
3

Plaintiffs note that the out-of-circuit cases defendants rely
on were not decided on the pleadings. [23] at 12 (citing Heller v.
District of Columbia, 670 F.3d 1244 (D.C. Cir. 2011); N.Y. State
Rifle & Pistol Ass’n v. Cuomo, 804 F.3d 242 (2d Cir. 2015); Peruta
v. Cty. of San Diego, 824 F.3d 919 (9th Cir. 2016); and Kolbe v.
Hogan, 849 F.3d 114 (4th Cir. 2017)). In 2012, before Friedman,
the Illinois Supreme Court held that it could not decide on the
pleadings whether assault weapons, as defined in the ordinance,
categorically fell outside the scope of the rights protected by the
Second Amendment. Wilson, 2012 IL 112026 at ¶ 46 (2012).

App. 24
for militia use might change over time, it would be circular to consider how common a weapon is at the time
of a lawsuit in deciding the constitutionality of a ban
on that weapon. Id. at 409 (“A law’s existence can’t be
the source of its own constitutional validity.”). Instead,
the relevant questions are: (1) whether a regulation
bans weapons that were common at the time of ratification or if it bans weapons that have “some reasonable relationship to the preservation or efficiency of a
well regulated militia,” and (2) whether law-abiding
citizens maintain adequate means of self-defense. Id.
at 410 (quoting Heller, 554 U.S. at 622–25).
Applying that framework to Highland Park’s ordinance, the court of appeals noted that the features prohibited by the law were not common in 1791, but that
the ordinance prohibited some weapons that are commonly used for military functions and that might affect
the preservation or effectiveness of the militia. Id. But
because states are in charge of militias, the court reasoned that they should be allowed to decide when civilians can possess such military-grade weapons.4 Id.
(citing Heller, 554 U.S. 570; Miller, 307 U.S. 174). The
court also decided that Highland Park’s ordinance left
adequate means for self-defense because, as in Heller,
the residents would still have access to most long guns,
pistols, and revolvers. Id. at 411. Nothing about that
analysis was specific to Highland Park.

4

That traditional power likely extends to local governments,
too. Friedman, 784 F.3d at 410–11 (citing 430 ILCS 65/13.1(c)).

App. 25
The court cited some general studies—(1) data establishes that laws similar to Highland Park’s reduce
the share of gun crimes involving assault weapons; and
(2) some evidence links the availability of assault
weapons to gun-related homicides. Id. at 411–12. Based
on that information (as opposed to facts from the record concerning Highland Park, specifically), the court
observed that although the ban would not eliminate
gun violence in Highland Park, which was already
rare, it might reduce the overall dangerousness of the
crime that does occur.5 Id. At the very least, the court
estimated that the ban would increase the community’s perception about their safety, which would be “a
substantial benefit.” Id. The court gave no indication
that this conclusion was limited to Highland Park.
Similar estimates or hypotheses about crime levels
and the public perception of safety could be made
about Cook County, and in any event, the justifications
for Highland Park’s law were not part of the court’s

5

Though plaintiffs describe Highland Park as “a tranquil
town in Lake County,” [23] at 10, with 29,000 residents, and they
contrast it with Cook County, which has over five million residents, the town’s tranquility was not decisive to the court. See
Friedman, 784 F.3d at 411. Other than its observation that shootings were rare in Highland Park, the court did not focus on facts
unique to Highland Park. Similarly, the assertions Highland
Park included in its summary judgment briefs about the town’s
well-staffed police department and infrequent crime (in reference
to the assertion that Highland Park residents do not need “[o]verwhelming firepower” for self-defense) did not appear in the court’s
opinion. See Brief for Defendants at 4, 11, Friedman v. City of
Highland Park, 68 F.Supp.3d 895 (N.D. Ill. 2014) (No. 13-cv-9073).

App. 26
decision that assault weapons are not the kinds of
arms the Second Amendment protects.
Plaintiffs insist that the ordinance strikes at
the core of the Second Amendment right to bear arms
and that it cannot survive constitutional scrutiny under Ezell’s framework. This is incorrect. Ezell instructs
courts to address a threshold question, asking whether
the regulated activity falls within the scope of the Second Amendment. 651 F.3d at 701. If the regulated activity is outside the reach of the Second Amendment,
the law survives the constitutional challenge. Id. at
702–03; Ezell v. City of Chicago, 846 F.3d 888, 892 (7th
Cir. 2017). In Friedman, the Seventh Circuit rejected
the argument that the Second Amendment conferred a
right to own assault weapons. As a result, this court
cannot now conclude that the county’s ordinance—a
ban on assault weapons—regulates activity within the
scope of the Second Amendment. The Ezell analysis,
therefore, ends at the threshold question, and the conclusion remains the same: the Cook County ordinance
is constitutional. The court need not consider plaintiffs’
arguments about the appropriate level of scrutiny to
apply or about the need for discovery to discern (and
assess) defendants’ justifications for the ban.
That the courts in Friedman and similar cases
(New York State Rifle & Pistol Association, Peruta, and
Kolbe) allowed the parties to exchange discovery before
terminating those cases is not a basis for denying the
motion to dismiss. Under Friedman, plaintiffs cannot
challenge the ordinance under the Second Amendment. The motion to dismiss is granted.

App. 27
Ordinarily, leave to amend the complaint should
be freely given. See Runnion ex rel. Runnion v. Girl
Scouts of Greater Chi. & Nw. Ind., 786 F.3d 510, 518
(7th Cir. 2015) (there is a presumption in favor of giving plaintiffs at least one opportunity to amend the
complaint). Here, however, Friedman forecloses a facial
challenge to this ordinance under the Second Amendment, and it would be futile to give plaintiffs leave to
amend the complaint. The dismissal is with prejudice.
Enter judgment and terminate civil case.
ENTER:
/s/ Manish S. Shah
Manish S. Shah
United States District Judge
Date: August 3, 2018

App. 28
DIVISION 4. - BLAIR HOLT ASSAULT WEAPONS BAN1
Sec. 54-210. - Applicability.
(a) The provisions included in this division apply
to all persons in Cook County including, but
not limited to, persons licensed under this article.
(b) As provided in Article VII, Section 6(c), of the
State of Illinois Constitution of 1970, if this
article conflicts with an ordinance of a municipality, the municipal ordinance shall prevail
within its jurisdiction.
(Ord. No. 13-O-32, 7-17-2013.)
Sec. 54-211. - Definitions.
The following words, terms and phrases, when used in
this division, shall have the meanings ascribed to them
in this section, except where the context clearly indicates a different meaning:

1

Editor’s note—Ord. No. 13-O-32, adopted July 17, 2013,
amended div. 4 in its entirety to read as herein set out. Former div.
4 consisted of §§ 54-211—54-213, pertained to the same subject
matter, and derived from Ord. No. 93-O-37, adopted Oct. 19, 1993;
Ord. No. 93-O-46, adopted Nov. 16, 1993; Ord. No. 94-O-33,
adopted July 6, 1994; Ord. No. 99-O-27, adopted Nov. 23, 1999;
and Ord. No. 06-O-50, adopted Nov. 14, 2006.

App. 29
Assault weapon means:
(1) A semiautomatic rifle that has the capacity to accept a large capacity magazine detachable or otherwise and one or more of the following:
(A) Only a pistol grip without a stock attached;
(B) Any feature capable of functioning as a protruding grip that can be held by the nontrigger hand;
(C) A folding, telescoping or thumbhole stock;
(D) A shroud attached to the barrel, or that partially or completely encircles the barrel, allowing the bearer to hold the firearm with the
non-trigger hand without being burned, but
excluding a slide that encloses the barrel; or
(E) A muzzle brake or muzzle compensator;
(2) A semiautomatic pistol or any semi-automatic rifle that has a fixed magazine, that has the capacity
to accept more than ten rounds of ammunition;
(3) A semiautomatic pistol that has the capacity to accept a detachable magazine and has one or more
of the following:
(A) Any feature capable of functioning as a protruding grip that can be held by the nontrigger hand;
(B) A folding, telescoping or thumbhole stock;
(C) A shroud attached to the barrel, or that partially or completely encircles the barrel, allowing the bearer to hold the firearm with the

App. 30
non-trigger hand without being burned, but
excluding a slide that encloses the barrel;
(D) A muzzle brake or muzzle compensator; or
(E) The capacity to accept a detachable magazine
at some location outside of the pistol grip.
(4) A semiautomatic shotgun that has one or more of
the following:
(A) Only a pistol grip without a stock attached;
(B) Any feature capable of functioning as a protruding grip that can be held by the nontrigger hand;
(C) A folding, telescoping or thumbhole stock;
(D) A fixed magazine capacity in excess of five
rounds;
(E) An ability to accept a detachable magazine; or
(F) A grenade, flare or rocket launcher.
(5) Any shotgun with a revolving cylinder.
(6) Conversion kit, part or combination of parts, from
which an assault weapon can be assembled if
those parts are in the possession or under the control of the same person;
(7) Shall include, but not be limited to, the assault
weapons models identified as follows:

App. 31
(A) The following rifles or copies or duplicates
thereof:
(i)

AK, AKM, AKS, AK-47, AK-74,
ARM, MAK90, Misr, NHM 90, NHM
91, SA 85, SA 93, VEPR, Rock River
Arms LAR-47, Vector Arms AK-47,
VEPR, WASR-10, WUM, MAADI,
Norinco 56S, 56S2, 84S, and 86S;

(ii)

AR-10;

(iii)

AR-15, Bushmaster XM15, Bushmaster Carbon 15, Bushmaster
ACR, Bushmaster MOE series, Armalite M15, Armalite M15-T and
Olympic Arms PCR;

(iv)

AR70;

(v)

Calico Liberty;

(vi)

Dragunov SVD Sniper Rifle or Dragunov SVU;

(vii)

Fabrique
National
FN/LAR, or FNC;

(viii)

Hi-Point Carbine;

(ix)

HK-91, HK-93, HK-94, HK-USC
and HK-PSG-1;

(x)

Kel-Tec Sub Rifle, Kel-Tec Sub2000, SU-16, and RFB;

(xi)

Saiga;

(xii)

SAR-8, SAR-4800;

(xiii)

KS with detachable magazine;

FN/FAL,

App. 32
(xiv)

SLG 95;

(xv)

SLR 95 or 96;

(xvi)

Steyr AUG;

(xvii)

Sturm, Ruger Mini-14, and Sturm,
Ruger & Co. SR556;

(xviii)

Tavor;

(xix)

All Thompson rifles, including
Thompson 1927, Thompson M1,
Thompson
M1SB,
Thompson
T1100D, Thompson T150D, Thompson T1B, Thompson T1B100D,
Thompson T1B50D, Thompson
T1BSB, Thompson T1-C, Thompson
T1D, Thompson T1SB, Thompson
T5, Thompson T5100D, Thompson
TM1, Thompson TM1C and Thompson 1927 Commando;

(xx)

Uzi, Galil and Uzi Sporter, Galil
Sporter, or Galil Sniper Rifle
(Galatz)

(xxi)

Barrett REC7, Barrett M82A1, Barrett M107A1;

(xxii)

Colt Match Target Rifles;

(xxiii)

Double Star AR Rifles;

(xxiv)

DPMS Tactical Rifles;

(xxv)

Heckler & Koch MR556;

(xxvi)

Remington R-15 Rifles;

(xxvii)

Rock River Arms LAR-15;

App. 33
(xxviii)

Sig Sauer SIG516 Rifles, SIG AMT,
SIG PE 57, Sig Saucer [sic] SG 550,
and Sig Saucer [sic] SG 551;

(xxix)

Smith & Wesson M&P15;

(xxx)

Stag Arms AR;

(xxxi)

Baretta CX4 Storm;

(xxxii)

CETME Sporter;

(xxxiii)

Daewoo K-1, K-2, Max 1, Max 2, AR
100, and AR 110C;

(xxxiv)

Fabrique Nationale/FN Herstal
FAL, LAR, 22 FNC, 308 Match,
L1A1 Sporter, PS90, SCAR, and
FS2000;

(xxxv)

Feather Industries AT-9;

(xxxvi)

Galil Model AR and Model ARM;

(xxxvii)

Springfield Armory SAR-48;

(xxxviii) Steyr AUG;
(xxxix)

UMAREX UZI Rifle;

(xl)

UZI Mini Carbine, UZI Model A
Carbine, and UZI Model B Carbine;

(xli)

Valmet M62S, M71S, and M78;

(xlii)

Vector Arms UZI Type;

(xliii)

Weaver Arms Nighthawk; and

(xliv)

Wilkinson Arms Linda Carbine

App. 34
(B) The following handguns, pistols or copies or
duplicates thereof:
(i)

All AK-47 types, including Centurion
39 AK handgun, Draco AK-47 handgun,
HCR AK-47 handgun, 10 Inc. Hellpup,
AK-47 handgun, Krinkov handgun,
Mini Draco AK-47 handgun, and Yugo
Krebs Krink handgun.

(ii)

All AR-15 types, including American
Spirit AR-15 handgun, Bushmaster
Carbon 15 handgun, DoubleStar Corporation AR handgun, DPMS AR-15
handgun, Olympic Arms AR-15 handgun and Rock River Arms LAR 15
handgun;

(iii)

Calico Liberty handguns;

(iv)

DSA SA58 PKP FAL handgun;

(v)

Encom MP-9 and MP-45;

(vi)

Heckler & Koch model SP-89 handgun;

(vii)

Intratec AB-10, TEC-22 Scorpion, TEC9 and TEC-DC9;

(viii) Kel-Tec PLR 16 handgun;
(ix)

MAC-IO, MAC-11, Masterpiece Arms
MPA A930 Mini Pistol, MPA460 Pistol,
MPA Tactical Pistol, MPA 3 and MPA
Mini Tactical Pistol;

(x)

Military Armament Corp. Ingram M-11
and Velocity Arms VMAC;

(xi)

Sig Sauer P556 handgun;

App. 35
(xii)

Sites Spectre;

(xiii) All Thompson types, including the
Thompson TA510D and Thompson
TA5;
(xiv) Olympic Arms OA;
(xv)

TEC-9, TEC-DC9, TEC-22 Scorpion, or
AB-10; and

(xvi) All UZI types, including Micro-UZI.
(C) The following shotguns or copies or duplicates
thereof:
(i)

Armscor 30 BG;

(ii)

SPAS 12 or LAW 12;

(iii) Striker 12;
(iv) Streetsweeper;
(v)

All IZHMASH Saiga 12 types, including
the IZHMASH Saiga 12, IZHMASH
Saiga 12S, IZHMASH Saiga 12S EXP01, IZHMASH Saiga 12K, IZHMASH
Saiga 12K-030, and IZHMASH Saiga
12K-040 Taktika.

(D) All belt-fed semiautomatic firearms, including
TNWM2HB.
“Assault weapon” does not include any firearm
that has been made permanently inoperable, or satisfies the definition of “antique firearm,” stated in this
section, or weapons designed for Olympic target shooting events.

App. 36
Barrel Shroud means a shroud that is attached to,
or partially or completely encircles, the barrel of a firearm so that the shroud protects the user of the firearm
from heat generated by the barrel. The term does not
include (i) a slide that partially or completely encloses
the barrel: or (ii) an extension of the stock along the
bottom of the barrel which does not completely or substantially encircle the barrel.
Detachable magazine means any ammunition
feeding device, the function of which is to deliver one
or more ammunition cartridges into the firing chamber, which can be removed from the firearm without
the use of any tool, including a bullet or ammunition
cartridge.
Large-capacity magazine means any ammunition
feeding device with the capacity to accept more than
ten rounds, but shall not be construed to include the
following:
(1) A feeding device that has been permanently altered so that it cannot accommodate more than
ten rounds.
(2) A 22-caliber tube ammunition feeding device.
(3) A tubular magazine that is contained in a leveraction firearm.
Muzzle brake means a device attached to the muzzle of a weapon that utilizes escaping gas to reduce recoil.

App. 37
Muzzle compensator means a device attached to
the muzzle of a weapon that utilizes escaping gas to
control muzzle movement.
Rocket means any simple or complex tube-like device containing combustibles that on being ignited liberate gases whose action propels the device through
the air and has a propellant charge of not more than
four ounces.
Grenade, flare or rocket launcher means an attachment for use on a firearm that is designed to propel a
grenade, flare, rocket, or other similar destructive device.
Belt-fed semiautomatic firearm means any repeating firearm that: (i) utilizes a portion of the energy of a
firing cartridge to extract the fired cartridge case and
chamber the next round: (ii) requires a separate pull of
the trigger to fire each cartridge: and (iii) has the capacity to accept a belt ammunition feeding device.
(Ord. No. 13-O-32, 7-17-2013.)
Sec. 54-212. - Assault weapons, and large-capacity magazines; sale prohibited; exceptions.
(a) It shall be unlawful for any person to manufacture, sell, offer or display for sale, give, lend, transfer ownership of, acquire, carry or possess any
assault weapon or large capacity magazine in
Cook County. This subsection shall not apply to:
(1) The sale or transfer to, or possession by any
officer, agent, or employee of Cook County or

App. 38
any other municipality or state or of the
United States, members of the armed forces of
the United States; or the organized militia of
this or any other state; or peace officers to the
extent that any such person named in this
subsection is otherwise authorized to acquire
or possess an assault weapon and/or large capacity magazine and does so while acting
within the scope of his or her duties;
(2) Transportation of assault weapons or large
capacity magazine if such weapons are broken
down and in a nonfunctioning state and are
not immediately accessible to any person.
(b) Any assault weapon or large capacity magazine
possessed, carried, sold or transferred in violation
of Subsection (a) of this section is hereby declared
to be contraband and shall be seized and disposed
of in accordance with the provisions of Section 54213.
(c) Any person including persons who are a qualified
retired law enforcement officer as defined in 18
U.S.C. § 926C who, prior to the effective date of the
ordinance codified in this section, was legally in
possession of an assault weapon or large capacity
magazine prohibited by this division shall have 60
days from the effective date of the ordinance to do
any of the following without being subject to prosecution hereunder:
(1) To legally remove the assault weapon or large
capacity magazine from within the limits of
the County of Cook; or

App. 39
(2) To modify the assault weapon or large capacity
magazine either to render it permanently inoperable; or
(3) To surrender the assault weapon or large capacity magazine to the Sheriff or his designee
for disposal as provided below.
(Ord. No. 13-O-32, 7-17-2013.)
Sec. 54-213. - Destruction of weapons confiscated.
(a) Whenever any firearm, assault weapon, or large
capacity magazine is surrendered or confiscated
pursuant to the terms of this article, the Sheriff
shall ascertain whether such firearm is needed as
evidence in any matter.
(b) If such firearm, assault weapon, or large capacity
magazine is not required for evidence it shall be
destroyed at the direction of the Sheriff. A record
of the date and method of destruction and inventory of the firearm, assault weapon, or large capacity magazine so destroyed shall be maintained.
(Ord. No. 13-O-32, 7-17-2013.)
Sec. 54-214. - Violation; penalty.
(a) Any person found in violation of this division shall
be fined not less than $5,000.00 and not more than
$10,000.00 and may be sentenced for a term not to
exceed more than six months imprisonment. Any
subsequent violation of this division shall be punishable by a fine of not less than $10,000.00 and

App. 40
not more than $15,000.00 and may be sentenced
for a term not to exceed more than six months imprisonment.
(b) It shall not be a violation of this division if a person transporting an assault weapon firearm or
ammunition while engaged in interstate travel is
in compliance with 18 U.S.C.A. § 926A. There shall
be a rebuttable presumption that any person
within the county for more than 24 hours is not
engaged in interstate travel, and is subject to the
provisions of this chapter.
(Ord. No. 13-O-32, 7-17-2013; Ord. No. 15-4167, 9-92015.)
Sec. 54-215. - Severability.
If any subsection, paragraph, sentence or clause of this
division or the application thereof to any person is for
any reason deemed to be invalid or unconstitutional,
such decision shall not affect, impair or invalidate any
remaining subsection, paragraph, sentence or clause
hereof or the application of this Section to any other
person.
(Ord. No. 13-O-32, 7-17-2013.)

